           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    SOCIAL SECURITY NUMBER
   CARDS ISSUED AFTER DEATH


    April 2005   A-06-03-13078




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   April 20, 2005                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Number Cards Issued After Death (A-06-03-13078)



        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        complied with its policy concerning the issuance of original and replacement Social
        Security number (SSN) cards for individuals who were deceased.

        BACKGROUND
        Each year, SSA processes millions of applications for SSN cards. Of the more than
        16 million applications processed each year from Fiscal Years (FY) 1999 through 2002,
        over 11 million were replacement cards. SSA recognizes that, over time, the SSN has
        become a primary means of identification in both the public and private sectors and that,
        as use of the SSN has grown, so has identity fraud. To this end, SSA has a role in
        combating identity fraud through the prevention and detection of SSN misuse.1

        Under limited circumstances, SSA may assign an original SSN after a person’s death.2
        For example, according to SSA’s Program Operations Manual System (POMS), SSA
        will assign an original SSN if one is needed for health insurance claims filed on behalf of
        a deceased child.3 SSA does not reassign an SSN after the numberholder's death.4

        Before SSA’s policy change in November 2002, SSA could issue replacement cards on
        behalf of deceased individuals. SSA controlled the issuance of these cards by having
        them sent to the field offices that processed the applications. Field offices were
        required to record the SSN card request in a security log and deface the card with the

        1
            SSA’s FY 2004 Performance and Accountability Report, page 31.
        2
            SSA, POMS, RM 00206.055(A), SSN Applications on Behalf of Deceased Persons.
        3
            Id.
        4
            Social Security Online, History, Frequently Asked Questions at http://www.ssa.gov/history/hfaq.html.
Page 2 – The Commissioner


word “Deceased” before forwarding the card to the requestor. Effective
November 2002, SSA amended its policy and eliminated the provision that allowed the
issuance of replacement cards on behalf of deceased individuals.5 The amended policy
states that SSA can offer to provide verification, such as third-party verification, an SSN
verification printout, or instructions on how to obtain a numerical identification
(Numident) record; however, a replacement card will not be issued.6

We identified 12,0827 instances from December 1987 through November 2003 where
SSA issued SSN cards although a date of death was recorded in the numberholder’s
Numident record. Our review focused primarily on these transactions. In
September 2004, we identified another 420 SSN cards issued from December 2003
through August 2004 to identify the total number of cards issued after the policy change
in November 2002. We did not select any of these additional cases for detailed review.
The chart below summarizes these 12,502 issuances by fiscal year.

                  Number of SSN Cards Issued by Fiscal Year to Numberholders
                        with a Date of Death on their Numident Record
      3000
                                                                            2,599
      2500                                                                                        Policy Change
                                                                                                  November 2002
      2000
                                                                                    1,631
      1500
                746 1,066 1,022                                                             894
      1000                                                                                         752   763
                                                                      453                                         665   517
          500                                             318
                                  223   200   256   234         163
            0
                1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004


Death entries are sometimes posted in error to an individual’s Numident record. If this
occurs and the individual requests a replacement SSN card, field office personnel
should review the Application for a Social Security Card (Form SS-5) and determine the
validity of supporting identity documents. If sufficient proof of identity is provided, SSA
personnel should remove the death entry, then certify and enter the applicant
information into SSA’s Modernized Enumeration System (MES). The applicant
information then undergoes numerous automated edits to further validate the
information. If the applicant information passes all of these edits, MES issues an SSN
card. Appendix B provides the scope and methodology of our review.




5
    SSA, POMS, RM 00206.055(B)(2), SSN Applications on Behalf of Deceased Persons (TN 6 – 11/02).
6
    Id.
7
    Thirteen original and 12,069 replacement cards.
Page 3 – The Commissioner


RESULTS OF REVIEW
Of the 12,082 cards SSA issued between December 1987 and November 2003
although a date of death was recorded in the numberholder’s Numident record, 13 were
original SSN cards and 12,069 were replacement cards. Nothing came to our attention
to indicate the 13 original cards issued on behalf of deceased individuals were not in
compliance with SSA policy. However, we found that SSA did not comply with its policy
on controlling or issuing replacement cards when SSA’s records indicated the
numberholder was deceased. While these issuances represented a very small
percentage of the cards processed each year, the risk that even a few cards might be
issued to individuals who may intend to use someone else’s identity is a matter of
increasing concern.

We analyzed trends for the 12,069 replacement cards and reviewed SS-5
documentation for a selected number of the cards. We found SSA continued to issue
SSN cards containing the SSNs of individuals who were listed as deceased, even after
its policy change in November 2002. We also noted that SSA issued replacement SSN
cards to questionable applicants, including some who were issued multiple replacement
cards; paid over $1.6 million in survivor benefits to auxiliaries of apparently living
individuals; and accepted questionable proof of identity documents when it processed
applications for replacement cards. In these instances, SSA did not correct
discrepancies in the Numident record when it had information to indicate its records
contained errors.

Although SSA had MES procedures to alert employees of conflicts between application
and Numident information, the procedures did not prevent employee error. By promptly
correcting erroneous death information or ensuring replacement cards are not issued on
deceased individuals’ SSNs, SSA can lessen the risk it will enable identity fraud and
reduce the likelihood of improper survivor payments.

REPLACEMENT CARDS ISSUED AFTER POLICY CHANGE

In November 2002, SSA amended its policies and procedures to eliminate provisions
allowing for the issuance of replacement cards against SSNs of deceased individuals.8
Contrary to this policy, SSA continued to issue replacement cards with SSNs of
deceased individuals. From December 2002 to August 2004, SSA issued
1,068 replacement cards with SSNs of individuals whose Numident record contained a
date of death. We did not perform a detailed review of these 1,068 issuances.
However, we did review a random sample of 30 replacement cards issued in FY 2003,
including 27 issued after the policy change. In 21 of 27 cases, SSA determined the
numberholders were deceased but still issued the replacement cards.




8
    SSA, POMS, RM 00206.055(B)(2), SSN Applications on Behalf of Deceased Persons (TN 6 – 11/02).
Page 4 – The Commissioner


QUESTIONABLE APPLICANTS FOR ASSIGNED SSNs

To determine whether obvious discrepancies existed between information in the
applications for replacement SSN cards and information recorded in the Numident’s
death entries for the 12,069 replacement cards, we compared the first name, last name,
and date of birth on the Numident death entry to the Numident replacement card entry.9
This comparison identified 537 replacement card issuances where the name and date
of birth information provided on the application did not match the information of the
deceased person listed in SSA’s records. SSA is required to apply basic verification
standards to the applicant’s name and date of birth when the identifying information
provided does not exactly match the Numident record.10

In 401 of these cases, the applicant’s date of birth was more than 6 years different than
the date of birth that appeared in the numberholder’s Numident death entry. In some
cases, the difference in dates of birth exceeded 90 years. Although it appeared the
individuals requesting these replacement cards were not the actual numberholders,
SSA personnel approved the applications without addressing the discrepancies.
Appendix C provides examples of differences in dates of birth for some of the
537 instances in which the replacement card information did not match the Numident
death entry. Appendix D summarizes these occurrences by the year of issuance.

MULTIPLE REPLACEMENT CARDS ISSUED AGAINST THE SAME SSN

From the 12,069 replacement cards discussed above, we found SSA approved and
issued 2 or more replacement cards to 378 individuals after a date of death was posted
on SSA’s records for those individuals.

                     Number of Individuals Issued Multiple Replacement
                      Cards Although a Date of Death was Recorded in
                             The Individual’s Numident Record

                            Replacement Cards
                                                          Individuals
                              per Individual
                                        2                        307
                                        3                         54
                                        4                         13
                                        5                          4
                                      Total                      378




9
 The Numident replacement card entry reflects information entered from the paper SS-5 applications or
data entries made through the MES interviews.
10
 SSA, POMS, RM 00208.013, How to Verify Numident and Alpha-Index Query Responses, &
RM 00208.015, Applying the Basic Verification Standards.
Page 5 – The Commissioner


Seventy-one11 of these individuals were issued three or more replacement cards. We
requested and reviewed the SS-5 applications for these 71 individuals and determined
that 62 had applied12 for the replacement cards on their own behalf.13 The SS-5
applications also indicated that SSA accepted the proofs of identity offered by the
applicants. However, the SSA personnel who processed the applications did not
remove the death entry from the individual’s Numident record.

QUESTIONABLE SURVIVOR BENEFIT PAYMENTS

SSA paid $1.6 million in survivor benefits to auxiliary beneficiaries for 19 of the
71 individuals who applied for and received 3 or more replacement cards after the death
entry was posted on their Numident record. The SS-5 applications indicated that these
individuals applied for a replacement card on their own behalf, and SSA field office
personnel verified and confirmed their identities. In 15 of the 19 cases, SSA approved
the applications and issued replacement cards at the same time survivor benefits were
being paid to the applicant’s auxiliary beneficiaries. In these 15 cases, SSA paid nearly
$720,000 in benefits after it verified the identity of the allegedly deceased
numberholder. In all 19 cases, either the survivor payments were improper and should
have been terminated when the replacement card applications were processed or SSA
mistakenly issued SSN cards to someone other than the proper numberholder.

For example, one allegedly deceased individual had three children who received a total
of $151,480 in survivor benefit payments from December 1995 through
December 2004. Two of these children (12-year-old twins) received more than
$8,600 each in annual survivor benefits—which will continue through 2010. However, in
January 1999, September 2000, April 2003, and June 2004, SSA approved applications
for replacement cards submitted by someone who claimed to be the allegedly deceased
numberholder.

We did not independently determine whether any of these individuals were actually alive
because SSA field offices had already documented multiple verifications of identity for
each of these individuals. The example provided above is the only instance we found
where survivor benefits were still being paid at the time of our review. We referred this
case to our Office of Investigations. Appendix E illustrates the survivor payments made
to auxiliaries of the 19 allegedly deceased individuals, the years benefits were paid, and
the years in which replacement cards were issued.


11
  This includes 5 replacement card issuances from the 537 discussed in the Questionable Applicants for
Assigned SSNs section of this report.
12
 The applications for the remaining nine individuals were either not provided by SSA, or the “Your
Relationship” block was not checked or was completed by a third party.
13
  We requested and reviewed SS-5s for 101 individuals, including 71 individuals who had been issued
3 or more replacement cards after the date of death was posted to their Numident record and
30 randomly selected individuals who were issued replacement cards in FY 2003. In total, we requested
265 completed SS-5s for 101 individuals. SSA provided copies for 233 and could not locate 32.
Page 6 – The Commissioner


SSA ACCEPTED QUESTIONABLE PROOF OF IDENTITY

Before issuing replacement cards, SSA requires that applicants confirm their identity by
submitting one or more documents that show the person’s name and provide
biographical information (age, date of birth, or parent’s name).14 The reviewer can
compare the document with data on the application and/or the applicant’s physical
characteristics (for example, hair or eye color).15 Acceptable forms of identity
documents include current driver’s license, employee identification card, military
identification, or school identification card.

In addition to the SS-5s we requested for the 71 individuals who were issued 3 or more
replacement cards, we requested and reviewed SS-5 applications for 30 randomly
selected individuals who were issued replacement cards in FY 2003. We reviewed
233 SS-5 applications for these 101 individuals. We found that SSA employees
approved issuance of many of these cards after accepting documentation that did not
appear to sufficiently establish the identity of the individual who requested the card.

•      In 23 instances, either no evidence of identity was documented on the application or
       the evidence documented was items that, according to POMS, “…should not be
       accepted as adequate by themselves to establish identity for SSA purposes.”16
       Documentation SSA accepted as proof of identity for these applications included
       library cards, voter registration cards, hunting licenses, and utility bills.

•      In 72 instances, SSA approved issuance of replacement cards upon acceptance of
       questionable documentation, such as pay stubs, third-party letters, certain expired
       driver’s licenses, telephone cards, and baptismal certificates.

MES CONTROLS

SSA’s MES has controls to alert employees when requests for replacement cards may
conflict with information in its records. When a conflict occurs, MES sends a system-
generated feedback message to alert employees of the discrepancy in the applicant’s
information.17 The feedback messages for death discrepancies require that a manager
enter his or her personal identification number for resolution.18 However, the employee
can still process and issue the replacement card without clearing the death entry from
the Numident record. In such cases, MES does not regenerate a feedback message to
alert the field office to resolve the incorrect information. The continued issuance of
replacement cards after November 2002—although the individual is listed as
deceased—reflects a continuing vulnerability with SSA’s process.
14
     SSA, POMS, RM 00203.200(F), Evidence of Identity for an SSN Card.
15
     Id.
16
     SSA, POMS, RM 00203.200(H), Evidence of Identity for an SSN Card.
17
     Modernized Systems Operations Manual, Chapter 303, MES Enumeration Feedback Messages.
18
 Modernized Systems Operations Manual, Chapter 303-A, Resolving Enumeration Feedback
Messages - Tasks 10 & 12.
Page 7 – The Commissioner



CONCLUSION AND RECOMMENDATIONS
SSA did not comply with its policy concerning the issuance of replacement cards when
its records indicated the individual was deceased. While the number of such cards
issued is small in relation to the total number of SSN card applications processed each
year, the risk of issuing cards to the wrong individuals is magnified by the potential for
identity fraud. SSA amended its policy to prohibit the issuance of replacement cards for
deceased individuals, but cards were still issued after the November 2002 policy
change. In addition, SSA issued replacement SSN cards to questionable applicants,
paid survivor benefits to auxiliaries of apparently living individuals, and accepted
questionable identity documents. SSA can minimize the risk that it serves as an
enabler for identity fraud, as well as reduce the likelihood of improper payments, by
ensuring replacement cards are not issued on deceased numberholders’ accounts, and
by promptly resolving discrepancies between information provided by applicants for
replacement cards and information appearing in SSA’s records.

We recommend that SSA:

1. Ensure compliance with SSA policy concerning the issuance of replacement SSN
   cards for individuals whose record indicates they are deceased.

2. Determine whether information needs to be corrected in the individual records
   associated with the questionable issuances identified within the report. SSA should
   refer any potentially fraudulent cases to the Office of the Inspector General for
   investigation.

3. Determine the appropriateness of current survivor payments being made under the
   individual’s account discussed in the report.

4. Review its procedures for paying survivor’s payments to auxiliaries when evidence
   indicates that the numberholder is not deceased.

AGENCY COMMENTS

SSA agreed with our recommendations and provided technical comments that we
incorporated into the final report. See Appendix F for the text of SSA’s comments.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Comparison of Death Entry Date of Birth with Replacement Card Entry
             Date of Birth

APPENDIX D – Replacement Social Security Number Cards Issued by Fiscal Year
             where Name and Date of Birth Information Provided was Inconsistent
             with the Numberholder’s Numident Record

APPENDIX E – Survivor Benefits to Auxiliaries of Numberholders Who Applied for
             Replacement Cards After Recorded Date of Death

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                    Appendix A
Acronyms
FY         Fiscal Year
MES        Modernized Enumeration System
Numident   Numerical Identification
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number



Forms
SS-5       Application for a Social Security Card
                                                                                 Appendix B
Scope and Methodology
To accomplish our objective, we:

•     Reviewed the Social Security Administration’s (SSA) policies and procedures related
      to the Modernized Enumeration System (MES) and prior Office of the Inspector
      General and Government Accountability Office reports pertaining to enumeration.

•     Visited an SSA field office to view the enumeration process and interview field office
      staff regarding procedures used in issuing a Social Security number (SSN) card.

•     Extracted all 12,082 cases from SSA’s numerical identification (Numident) record
      where a date of death was posted to an individual’s record and an SSN card was
      issued1 after the posted date of death. Of these, 13 were issued as original cards,
      and 12,069 were issued as replacement cards. We examined these issuances to
      determine

      ¾ whether there were notable differences between information in the application
        and information in SSA’s records and

      ¾ the number of times replacement cards were issued under the same SSN.

•     Performed a similar data extract in September 2004 for the period December 2003
      through August 2004. This extract identified another 420 replacement card
      issuances. We did not select these cases for testing. However, we did consider
      these transactions when identifying the number of cases since the November 2002
      policy change prohibiting issuance of replacement cards on behalf of deceased
      individuals.

•     Determined whether obvious discrepancies existed between information in the
      applications for replacement SSN cards and information recorded in the Numident’s
      death entries. We compared the first name, last name, and date of birth on the
      Numident death entry to the Numident replacement card entry for the 12,069
      replacement cards issued from December 1987 through November 2003.2




1
    From December 1987 through November 2003.
2
 The Numident replacement card entry reflects information entered from the paper SS-5 applications, or
data entries made through the MES interviews.


                                                  B-1
•   Requested 265 Applications for a Social Security Card (Form SS-5) from SSA’s
    Office of Central Operations, Center for Material Resources for 101 individuals. SSA
    provided, and we reviewed, 233 of the 265 SS-5s for 101 individuals including:

    ¾ 71 individuals who had been issued 3 or more replacement cards after the date
      of death posted to their Numident record, and

    ¾ 30 randomly selected individuals who were issued replacement cards in
      Fiscal Year 2003.

•   Retrieved and reviewed the Master Beneficiary Records, Supplemental Security
    Income Records, Numident Records and Earnings Records for our sample items
    (if applicable).

We conducted our audit between July and October 2004 at SSA’s Regional Office in
Dallas, Texas. The entity audited was the Office of the Deputy Commissioner for
Operations. We conducted this audit in accordance with generally accepted
government auditing standards.




                                          B-2
                                                                              Appendix C
Comparison of Death Entry Date of Birth with
Replacement Card Entry Date of Birth
                                         Replacement Card
             Death Entry                       Entry                     Difference in
             Date of Birth                 Date of Birth                    Years1
          September 6, 1890                  May 10,1987                       96.7
          November 8, 1891                  March 3, 1986                      94.4
          December 10, 1876                  July 29, 1970                     93.7
             July 22, 1900                 October 10, 1992                    92.3
            August 20, 1891                August 18, 1977                     86.1
           October 31, 1902                October 26, 1987                    85.0
             May 23, 1880                    May 6, 1965                       85.0
            August 7, 1891                February 10, 1970                    78.6
          November 7, 1893                 October 1, 1970                     76.9
                    …                              …                            …
             April 17, 1905                  May 21, 1912                      7.1
          November 4, 1913                December 5, 1906                     6.9
             April 13, 1927                February 5, 1934                    6.8
            October 3, 1919              December 12, 1912                     6.8
             July 20, 1899                   April 20, 1906                    6.8
          December 12, 1897               September 7, 1904                    6.7
          November 9, 1903                  March 28, 1897                     6.6
           October 14, 1963                 March 3, 1957                      6.6
             March 8, 1975               September 24, 1968                    6.5




1
 We identified 401 instances where differences in dates of birth between the replacement cards
application and the Numident record exceeded 6 years. Examples provided above include the nine
cases with the greatest difference as well as the nine cases with the least difference.
                                             Appendix D
Replacement Social Security Number Cards
Issued by Fiscal Year where Name and Date of
Birth Information Provided was Inconsistent
with the Numberholder’s Numident Record
                           Number of Cards
             Fiscal Year      Issued
                1988            102
                1989            131
                1990            116
                1991             41
                1992             23
                1993             17
                1994             29
                1995             15
                1996             11
                1997              8
                1998             13
                1999              9
                2000              1
                2001              6
                2002              5
                2003              9
                2004              1
                Total           537
                                                                       Appendix E
Survivor Benefits to Auxiliaries of
Numberholders Who Applied for Replacement
Cards After Recorded Date of Death
     Replacement                       Years SSA Paid                  Total Amount
     Cards Issued    Years Replacement   Benefits to  Number of         of Survivor
      After Death      Cards Issued      Survivors    Auxiliaries      Benefits Paid
          3              88, 89, 90           83-97*               5     $ 103,324
          3              89, 90, 93           74-91*               4       136,636
          3               89(2), 93           86-99*               1        22,556
          3               89, 93(2)            79-82               1         8,075
                         88, 89, 90,
          4                  94               87-96*±              1        41,936
          3              88, 89, 90           86-99*               1        70,450
          3              90, 96, 02            73-90               8        63,413
          4             89, 90(2), 99         78-95*               3        98,919
          3                 90(3)             84–02*               2        38,204
          3              87, 89, 91              91                1         3,954
          4               88(3), 90           82-98*               3       103,139
          3              89, 90, 98           75-93*               3       109,218
          5           88, 89, 90, 91(2)       78-90*               3        85,296
          3              89, 90, 94           78-93*               2        98,666
          3              89, 90, 92           81-99*±              2       105,170
          4             88, 93, 98(2)         75-86±               4       116,025
          3              88, 89, 94           83-98*±              4       189,819
          3                 90(3)             85-01*               1        56,095
                         99, 00, 03,
          4                  04               95-04*               3       151,480
                                                                        $1,602,375
 *    SSA continued paying survivor benefits even after approving replacement card
      requests from the allegedly deceased individual.
 ±     Individual claiming to be this numberholder is in prison.
                  Appendix F

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


           April 4, 2005                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General
From:      Larry W. Dye /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report "Review of Social Security Number Cards
           Issued After Death" (A-06-03-13078)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT
"REVIEW OF SOCIAL SECURITY NUMBER CARDS ISSUED AFTER DEATH"
(A-06-03-13078)


Thank you for the opportunity to review and comment on the draft report contents and
recommendations. We agree that the prevention and detection of Social Security number (SSN)
misuse is vital in combating identity fraud. The Social Security Administration (SSA) has taken
several steps to improve the integrity of the enumeration process that include:

•   Creating an interface between Title II and Title XVI claims and the Numident record to alert
    the field office (FO) if a death is posted to the Numident. Management clearance is needed
    to override the alert and permit adjudication of the claim.
•   Creating an enumeration message (EM) that is sent to interrupt the processing of an SS-5
    application when death data is present on the Numident. The FO is instructed to review SSA
    records and management clearance is required to clear the application.

We will continue to make every effort to address policies and procedures that are not being
followed and address ways to reduce the risk of paying benefits improperly. We are currently
working on changes to the enumeration system, and will determine if it is feasible to include in
those changes a process that prevents issuance of an SSN replacement card if death data is
present on the Numident.

Finally, it should be noted that of the 537 cases identified in Appendix D where replacement
cards were issued in spite of inconsistencies in the name and date of birth, only 15 cases
occurred in 2002 after we changed our policy for issuing SSN replacement cards on behalf of
deceased numberholders. This reflects a significant improvement in our performance in
reducing the risk of potential identity fraud.

Below are our responses to the recommendations as well as technical comments to enhance the
accuracy of the report.

Recommendation 1

SSA should ensure compliance with policy concerning the issuance of replacement SSN cards
for individuals whose record indicates they are deceased.

Response

We agree. We currently have policies and procedures in place that provide an alert
(EM 16 – Investigate Message) to interrupt the issuance of replacement cards to deceased
individuals when the record of death has been posted to SSA records. Prior to implementation of
the EM 16 alert, there were no systems-generated alerts. To address the current policy
compliance issue, we will issue an Administrative Message (AM) with reminders to our FO



                                               F-2
employees on the procedures for issuing SSN cards when the numberholder is deceased. We
expect to issue this AM in April 2005.

We will also include within a future Enumeration Essentials Interactive Video Training
broadcast refresher training on FO issuance of replacement SSN cards for individuals whose
Numident records indicate they are deceased. The next broadcast is tentatively scheduled for
Spring/Summer 2005.

Finally, as noted above, we are currently exploring plans for redesigning the Modernized
Enumeration System to build in additional safeguards to prevent the processing of an SSN
replacement card transaction if a death indicator is present on the Numident.

Recommendation 2

SSA should determine whether information needs to be corrected in the individual records
associated with the questionable issuances identified within the report. SSA should refer any
potentially fraudulent cases to the OIG for investigation.

Response

We agree. We will investigate the cases identified in the report and make referrals to OIG where
it is appropriate.

Recommendation 3

SSA should determine the appropriateness of current survivor payments being made under the
individual’s account discussed in the report.

Response

We agree. As with recommendation number 2, we will also review the cases identified to
determine if current survivor benefit payments should have been paid. It should be noted that
the case cited in the report has been forwarded to OIG for investigation.

Recommendation 4

SSA should review its procedures for paying survivors payments to auxiliaries when evidence
indicates that the numberholder is not deceased.

Response

We agree. We will review our procedures to ensure that discrepancies are promptly resolved
when information provided by applicants for replacement cards and information in our records
conflict.




                                              F-3
                                                              Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments

In addition to those named above:

   Joshua Campos, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-06-03-13078.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
